BURGSIMPSON

PHOENIX, ARIZONA
ENGLEWOOD, COLORADO
SARASOTA, FLORIDA
WEST PALM BEACH, FLORIDA

BURG I SIMPSON I ELDREDGE I HERSH I JARDINE PC

ATTORNEYS & COUNSELORS AT LAW

LAS VEGAS, NEVADA
ALBUQUERQUE, NEW MEXICO
CINCINNATI, OHIO
CODY, WYOMING

www.burgsimpson.com

COLORADO 40 Inverness Drive East Englewood, CO 80112
P: 303.792.5595 F: 303.708.0527

September 13, 2019

Yia Federalff-rpress
Clerk, Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543

Re. 19-241, UMB Bank N.A., et al. v. Landmark Towers Assn,Inc.

Dear Clerk,
Pursuant to Rule 30.4, the respondent respectfully requests that the time within which to
respond to the petition for certiorari be extended 30 days, to and including October 22, 2019. The
petition for certiorari in the above-entitled case was filed on August 21, 2019, and the brief in
opposition is now due, unless extended, on September 23, 2019.
This request is necessary since respondent's lead counsel, Brian K. Matise, has been out of
the office frequently for several weeks due to medical emergencies of an immediate family
member. Given the serious nature ofthese medical issues, Matise expects that he will be attending
to these issues intermittently in the coming weeks, as well. Additionally, after the petitioners filed
their petition, the parties engaged in unfruitful settlement negotiations. Matise and undersigned
counsel will be able to complete the brief within the extended period herein requested.
Undersigned counsel has conferred with Petitioners' counsel, Neil Arney. Petitioners do
not oppose this request.

Michael S. Burg
Peter W. Burg
Hon. Alan K. Simpson*
Scott J. Eldredge
David P. Hersh
Kerry N. Jardine
David K. TeSelle
Seth A. Katz
Stephen J. Burg
Nick D. Fogel
Janet G. Abaray*

Melanie S. Baileyv
D. Dean Batchelder
Kevin R. Blyskal
Nelson P. Boyle
Jacob M. Burg
David J. Crough
Kenneth M. Daly.
Brian C. Dault**
Jack F. DeGree'
Jessica L. Derakhshanian
Dan Ernst, PhD

Marshall Fogel
Shane C. Fulton
Andrew L. Gartman**
David C. Harman/
Thomas W. Henderson
Michael J. Heydt
Karl N. Hoffman
Jennifer S. Jensen*
Marc C. Johnson
Larry Jones*
Holly Baer Kammerer

Ronda M. Kelso**
Lindsey Krause Crandall*
Kirsten N. Kube
Penny J. Manship
Lisa R. Marks
Stephan J. Marsh
Brian K. Matise
Charles R. Mendez
Michael C. Menghini
Nicole C. Moskowitz
Joseph F. Nistico

Craig S. Nuss
Lewis A. Osterman
Ryan L. Pardue
Mari K. Perczak
Jessica L. Powell.
Jessica Prochaska
Meghan C. Quinlivan
John Roberts*
Colin M. Simpson*
Joseph F. Smith, Ill
Leslie A. Tuft

GOOD LAWYERS. CHANGING LIVES.°

OF COUNSEL
Scott A. Ambrose**
John M. Connell
Dale J. Coplan, P.C.
Jerry R. Dunn
Paul D. Friedman
James G. Heckbert
Angela E. McGraw
Ronald M. Sandgrund
Jennifer A. Seidman
Diane Vaksdal Smith
Curt T. Sultan
Valerie M. Sultan

IN MEMORIAM
Milward L. Simpson
1897-1993
Joseph J. Branney
1938-2001
Irwin L. Sandler
1945-2006

STATE LICENSES: Arizona, California, Colorado, Florida, Kentucky, Montana, Nebraska, Nevada, NewJersey, New Mexico, New York, Ohio, Pennsylvania, Texas, Virginia, Wisconsin, Wyoming
**LICENSED only in Arizona 'LICENSED only in Ohio .LICENSED in Ohlo and Kentucky *LICENSED only in Wyoming 'LICENSED only in Nevada

Clerk, Supreme Court of the United States
September 13, 2019
Page 2

Sincerely yours,

Nelson Boyle
Counselfor Respondent
40 Inverness Drive East
Englewood, CO 80112

CC: Counsel for Petitioner

